HHS/OIG Audit -"Commonwealth of Virginia Department of Health Section 1864 - 1902 Survey and Certification Costs for Health Care Providers and Suppliers October 1, 1997 - September 30 , 1999,"(A-03-00-00209)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Commonwealth of Virginia Department of Health Section 1864 - 1902 Survey and Certification Costs for Health Care
Providers and Suppliers October 1, 1997 - September 30, 1999," (A-03-00-00209)
August 3, 2001
Complete
Text of Report is available in PDF format (672 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review points out that the Virginia Department of Health (VDH), Center for Quality Healthcare Services and Consumer
Protection (the Center) utilized a reasonable methodology to allocate S&C costs to the Medicare and Medicaid certification,
and State licensing programs and correctly applied the Federally approved indirect costs rates for FYs 1997-1999.  However,
based on our examination and analysis of financial information, supporting documentation and other available evidence,
we found that the Center: (1) claimed unallowable costs totaling $29,298 for the Medicare program in the first quarter
of FY 1997 for the nurse aide program; (2) did not maintain adequate documentation to determine whether certain costs billed
to VDH by the Virginia Department of Health Professions (DHP) for the nurse aide program were supportable, allowable, and
accurate; and (3) did not obtain approval from CMS or the HHS Division of Cost Allocation (DCA) to implement a new cost
allocation methodology for joint licensing and certification surveys conducted at long term care (LTC) facilities beginning
in FY 2000.  We recommended that the Center: (1) refund $29,298 to the Medicare program for unallowable costs charged
in FY 1997; (2) establish a process for assuring that the quarterly charges to the Federal programs for the nurse aide
program are supportable, allowable, and accurate; and (3) obtain final CMS/DCA approval for the new cost sharing methodology
for joint licensing and certification surveys conducted at LTC facilities implemented in FY 2000.